Ui
I r* >

•v.

*

%
I

APPENDIX

'n

V

If

r

Ik

4

Case: l:19-cv-00700 Document #: 39 Filed: 02/12/20 Page 87 of 1-03 PagelD #.787

r.

V'

i

\

' ‘1

T*.

s’ D -L

!»•
IN THE circuit court of lake county, ILLINOIS
13TH JUDIQALORCUfT

!

14CF784 .

PEOPLE OF THE STATE OF ILLINOIS

■;

| Case No.

)

Vs.

Date of Birth.

i

Ernest R:. Jenkins

)

Defendant

April 8,2016 ftPR p p priig.
r

Dale of Sentence.

(Defendant)

amended

V ORIGINAL

CORRECTIONS
ItIDGMENT- ccMTCMrPTO U1.1MOIS DEPARTMENT. OP
I

' ! Circuit Clerk

to confinemen
OFFENSE

COUNT

.Theft.

1

OFFENSE

720|LCS5ns-1(a)fL)[A)

UMB-2/W/H

Money Laundering'

To~runV concurreritwlth

STATUTORY CITATION
“

m/12.aTauatonwiW

‘ Computer Fraud

4 .

^ST/ concurrent with

X
.

consecutivet

SENTENCE
!
18 - '

CLASS
____

—. 7% '85%,

To run / concurrent with

3 •

OATEOF

? Yrs.

.

^0S* •—1

100% pursuant to 730ILC5 S/3-6-3 _

1

S0%, / 75^T B5%,

7ZQ LCS SHT-SOW)

_________ - ’i’1'5*--------

MSR

yB------,Mos.^_Yrs.
^pursuant to 730ILCS S/3-6-3

7
2__________

i

2

Yrs.____ Mas.___ Yrs.

n^ZZ^T^*?**/** '^

This Court finds that the defendant is:
offense butsentenced as a dass X offender pursuant to 730 .LCSS/S-AS-9S(b) on cnuntfs) _u

Convicted of a class

V
/

73i

TlieCoURfW*erflnLaiBtthedB/BndantlS«M«ad“‘J^U.c^*|^1^^'^Sd,n

...-niddefdndmtl* *0 uttMed

^ i£^assaggs^i~«»««-y^>~—*.»—*«■*»*
to a surrend er date of

‘

"

The Court further finds that the con
to the victim. [730 U£5 S/B-B-StaKlKHil).

duct leading to conviction for the offenses enumerated in counts

_______ The court further finds that the defends nt meets the eligibility requlreme
1LCSS/S-A-I(a))-

resulted In great bodily harm

nts for possible placement In the impact lncarceratl?n'Pro|ram. (730 .

r*.

i '
result of the use of, abuse of, or addiction to alcohol or a controlled substance and

recommends the

participation, If not pren'ousiy awarded.

>

.

______Tte deftndant d,d.d Hie hish idKml tevd hstfar st«?l Eduotiq" dddoLe^nwl^ oci__---------- «M=held n

In case number

/

"*

W <*.

.

IT IS FURTHER ORDERED that

foerfr''

JiMf

•

defendant be placad in a

------ served'Witt------------^

NM

wm

jfW Ip
Appravir’djby

' •'Sfc&S^6'

V 'A

j

—

• Jame8lCBOOra8

(PLEASE PRINT JUDGE'S NAME HERE)

. 10/23/2013]

—I——
1

i
;

:i
!

page l of 2

Page 1 of 6
■*,

Lexis Advance

Document: People v. Jenkins, 2018IL App (2d) 160278-U

0 People v. Jenkins, 2018 IL App (2d) 160278-U
Appellate Court of Illinois, Second District
June 7, 2018, Order Filed
No. 2-16-0278
Reporter
2018 IL App (2d) 160278-U * | 2018 III. App. Unpub. LEXIS 939 **

THE PEOPLE OF THE STATE OF ILLINOIS, Plaintiff-Appellee, v. ERNEST R. JENKINS, Defendant-Appellant.

Notice: THIS ORDER WAS FILED UNDER SUPREME COURT RULE 23 AND MAY NOT BE CITED AS PRECEDENT BY ANY
PARTY EXCEPT IN THE LIMITED CIRCUMSTANCES ALLOWED UNDER RULE 23(e)(1).

Subsequent History: Appeal denied by People v. Jenkins, 2018 III. LEXIS 795 (III., Sept. 26, 2018)
Related proceeding at People v. Jenkins, 2018 IL App (2d) 170105-U, 2018 III. App. Unpub. LEXIS 1923 (Nov. 2, 2018)

Prior History: [**1] Appeal from the Circuit Court of Lake County. No. 14-CF-784. Honorable James K. Booras,
Judge, Presiding.

Disposition: Affirmed.

Core Terms
trial court, grand jury, investigators, grand-jury, subpoenas, sentence, money laundering, theft, retirement account,
gathered, records, business record, transfers, contends, admitting, void, obtain a search warrant, aggregated,
voluminous, documents, deceased, exhibits

Judges: JUSTICE JORGENSEN delivered the judgment of the court. Justices Hutchinson and Burke concurred in the
judgment.

Opinion by: JORGENSEN

https ://doc-advance. lexis. com/documentprint/documentprintclick/?pdmfid=1512960&crid...

5/15/2020

Page 2 of 6

(v

4;

Opinion

ORDER
[*P1] Held-. (1) The State proved venue beyond a reasonable doubt: although defendant was in Georgia, the
accounts he stole from, and the computer he used to access them, were maintained in Illinois; (2) the trial court
properly denied defendant's motion to suppress evidence that he alleged was collected pursuant to an improper
investigation independent of the grand jury: the police officers were duly appointed grand-jury investigators and thus
they properly reviewed evidence gathered pursuant to grand-jury subpoenas, used that evidence to obtain search
warrants, and turned the resulting evidence over to the grand jury; (3) the trial court properly admitted summaries of
business records: although the summaries were prepared in anticipation of litigation, the underlying records were
admissible; (4) per Castleberry, any error in defendant's sentence did not render it void.
[*P2] Defendant, Ernest R. Jenkins, appeals the judgment of the circuit court of Lake County [**2] finding him guilty
of theft (720 ILCS 5/16-l(a)(l)(A), (a)(2)(A) (West 2014)), money laundering more than $500,000 (720 ILCS 5/29B-1
(a)(1)(A) (West 2014)), and knowingly accessing a computer to defraud (720 ILCS 5/17-50(a)(3) (West 2014)) and
sentencing him to concurrent 18-year, 12-year, and 7-year terms of imprisonment, respectively. Because defendant
does not raise any reversible error, we affirm.

[*P3] I. BACKGROUND
[*P4] Defendant was indicted on one count of theft by unauthorized control of more than $1 million (720 ILCS 5/16-1
(a)(1)(A) (West 2014)) (count I), one count of theft by deception of more than $1 million (720 ILCS 5/16-l(a)(2)(A)
(West 2014)) (count II), one count of money laundering theft proceeds of more than $500,000 (720 ILCS 5/29B-l(a)
(1)(A) (West 2014)) (count III), and one count of knowingly accessing a computer as part of a scheme to defraud (720
ILCS 5/17-50(a)(3) (West 2014)) (count IV). Defendant, who represented himself, opted for a jury trial.
[*P5] Before trial, defendant filed a motion to quash grand-jury subpoenas and suppress evidence obtained via those
subpoenas. Defendant argued that, although the police were properly authorized as grand-jury investigators, they
examined the evidence gathered pursuant to the subpoenas before turning it over to the prosecutor or the grand jury,
thereby conducting an investigation independent of the grand [**3] jury. The trial court denied the motion.
[*P6] The State filed a motion in limine, seeking to have admitted as business records numerous financial documents
and summaries of those documents prepared by the police and other investigators. Although defendant did not object
to the admission of the financial documents themselves, he did object to the summaries as made in anticipation of
litigation. The trial court granted the State's motion as to both the records and the summaries, finding that the
summaries were based on voluminous records, would facilitate the jury's understanding of the records, and would
promote judicial economy.
[*P7] The following evidence was established at the trial. Aon Corporation (Aon) had its global headquarters in
Lincolnshire. Aon was the record administrator for several retirement funds, including those of Sears and HCA. Aon
maintained a computer system to manage its various client accounts.
[*P8] Defendant was employed by Aon as a business operations manager. His responsibilities included working with
the retirement accounts of Sears and HCA. Defendant lived in Georgia but had remote access to Aon's computer
system.
[*P9] George Giese was an internal investigator employed by Aon. [**4] In February 2014, Giese was notified by a
fellow employee of suspicious activity in a retirement account of a deceased Sears employee. Giese discovered that
there had been numerous suspicious transactions involving the retirement accounts of two deceased Sears employees.
Those transactions involved computer transfers from the accounts to defendant's Bank of America account. The total
amount of those transfers was approximately $5 million.
[*P10] After discovering that defendant, who had been terminated for unrelated reasons a few months before, had
access to the retirement accounts of the deceased Sears employees, Giese checked the retirement accounts of other
companies to which defendant had access. In doing so, he learned that defendant had also made unauthorized
transfers of over $2 million from an HCA retirement account into defendant's Bank of America account.
[*P11] Giese compiled a summary of the various transfers from the HCA account (exhibit No. 21). Exhibit No. 21 was
admitted without objection.
[*P12] Giese also created summaries related to the HCA and Sears transfers, respectively (exhibit Nos. 27 and 28).
Both of those exhibits were admitted without objection.
[*P13] Curt Young was a defined-contributions [**5] practice leader for Aon. He assisted in the investigation
regarding both the Sears and HCA accounts. In that role, he examined the various transactions conducted by
defendant.
[*P14] Young identified a summary based on the retirement account of one of the deceased Sears employees
(exhibit No. 22). That exhibit showed that the total amount transferred from the account was approximately $2.5
million. Exhibit No. 22 was admitted without objection.

https://doc-adyance.lexis.com/documentprint/documentprintclick/?pdmfid=1512960&crid ...

5/15/2020

't

>

Page 3 of 6

[*P15] Young identified a summary regarding the retirement account of the other deceased Sears employee (exhibit
No. 23). That summary showed unauthorized transfers totaling approximately $2.2 million. Exhibit No. 23 was admitted
without objection.
[*P16] Young referred to another summary that showed how much money had to be reimbursed to the two Sears
retirement accounts (exhibit No. 25). Exhibit No. 25 was admitted without objection.
[*P17] Exhibit No. 24 was a similar summary related to HCA. Exhibit No. 24 was admitted without objection.
[*P18] Sergeant John-Erik Anderson of the Lincolnshire Police Department investigated the thefts. As part of his
investigation, Sergeant Anderson interviewed defendant. According to Sergeant Anderson, defendant admitted that he
stole between [**6] $2 million and $3 million.
[*P19] Officer Adam Hyde of the Lincolnshire Police Department also participated in the investigation. He conducted a
forensic analysis of the various bank accounts involved, looking for irregular transactions.
[*P20] Officer Hyde created a summary of the various bank records (exhibit No. 26). Exhibit No. 26 was admitted
without objection.
[*P21] Officer Hyde also created a summary regarding defendant's Bank of America account (exhibit No. 29). Exhibit
No. 29 was admitted without objection.
[*P22] According to Officer Hyde, after defendant estimated that he had stolen between $2 million and $3 million,
Officer Hyde showed him exhibit No. 29, which indicated a total loss of approximately $4.6 million. When Officer Hyde
asked defendant if that amount was correct, defendant answered that it was.
[*P23] The jury found defendant guilty of all charges. Defendant filed a motion in arrest of judgment, contending
that the State never established that he committed any of the charged acts in Illinois. In contending that jurisdiction
was proven, the State pointed to Aon's corporate headquarters being in Illinois and that Aon administered the various
accounts from which defendant stole the funds. Agreeing [**7] with the State, the trial court found that the State had
established jurisdiction.
[*P24] Defendant also objected to the admission of the various summaries (exhibit Nos. 21-29) as having been made
for the purpose of litigation. The trial court rejected that argument.
[*P25] Defendant further argued that his conviction of money laundering should be vacated, because the law did not
allow for aggregation of multiple acts of money laundering. The trial court rejected that contention.
[*P26] The trial court sentenced defendant to 18 years' imprisonment on count I, merged count II into count I,
imposed a 12-year prison sentence on count III, and sentenced defendant to 7 years' imprisonment on count IV. All
terms of imprisonment were concurrent.
[*P27] Defendant filed a motion to reconsider the sentence. He contended, among other things, that his sentence for
money laundering was void because the State had improperly aggregated his conduct to arrive at an amount in excess
of $500,000. The trial court denied the motion to reconsider the sentence, and defendant filed this timely appeal.

[*P28] II. ANALYSIS
[*P29] On appeal, defendant, pro se, contends: (1) the State failed to prove that he committed any of the charged
acts within Illinois; [**8] (2) law enforcement officers, who were duly-appointed grand-jury investigators, acted
outside that authority by reviewing the evidence gathered via grand-jury subpoenas and using that evidence to obtain
search warrants; (3) the trial court abused its discretion in admitting exhibit Nos. 21-29, as they were prepared for the
litigation; and (4) the State improperly aggregated his conduct for purposes of the money-laundering charge.
[*P30] We address defendant's first contention. Illinois has jurisdiction over a crime that occurred wholly or partly
within the state. 720 ILCS 5/l-5(a)(l) (West 2014); People v. Moody, 2016 IL App (1st) 130071, H 29, 403 III. Dec.
523, 54 N.E.3d 183. An offense is committed partly within Illinois if either the conduct, or a result that constitutes an
element of the offense, occurred in Illinois. 720 ILCS 5/l-5(b) (West 2014); Moody, 2016 IL App (1st) 130071, H 29.
[*P31] Jurisdiction in a criminal case is an essential element that must be proved beyond a reasonable doubt. People
v. Young, 312 III. App. 3d 428, 430, 727 N.E.2d 386, 245 III. Dec. 133 (2000). As with any element, the State may
satisfy its burden of proving jurisdiction with either direct or circumstantial evidence. Young, 312 III. App. 3d at 430. In
deciding whether the evidence was sufficient to establish jurisdiction, the reviewing court must view the evidence in the
light most favorable to the prosecution and decide whether any rational trier of fact could find beyond [**9] a
reasonable doubt that jurisdiction existed. Young, 312 III. App. 3d at 430.
[*P32] A person commits theft when he knowingly obtains or exerts unauthorized control over another's property.
720 ILCS 5/16-l(a)(l) (West 2014). A person commits theft by deception when he knowingly obtains such control by
deception. 720 ILCS 5/16-l(a)(2) (West 2014). An essential element of computer fraud is accessing a computer. People
v. Davis, 353 III. App. 3d 790, 801, 819 N.E.2d 1195, 289 III. Dec. 395 (2004). A required element of money
laundering is a financial transaction involving criminally-derived property. 720 ILCS 5/29B-l(a)(l) (West 2014); People
v. Fields, 339 III. App. 3d 689, 697, 791 N.E.2d 686, 274 III. Dec. 594 (2003).
[*P33] Here, the evidence established that when defendant committed his fraudulent acts he was employed by Aon,
whose global headquarters were in Lincolnshire. Although defendant was in Georgia, his conduct resulted in Aon
suffering a loss in Illinois. Additionally, Aon maintained the computer system through which defendant effectuated his

https://doc-advance.lexis.com/documentprint/documentprintclick/7pdmfkHl 512960&crid...

5/15/2020

Page 4 of 6
fraud. Therefore, he accessed a computer system, at least part of which was in Illinois. See People v. Ruppenthal, 331
III. App. 3d 916, 923, 771 N.E.2d 1002, 265 III. Dec. 43 (2002) (citing People v. Baker, 268 III. App. 3d 16, 643 N.E.2d
286, 205 III. Dec. 335 (1994)). He also laundered funds that had been derived from his fraudulent Illinois conduct.
■.Viewed in the light most favorable to the State, there was sufficient evidence to establish that defendant committed at
least part of the charged conduct in Illinois. Thus, the State proved jurisdiction.
[*P34] We next address [**10] defendant's contention that law enforcement officers improperly used grand-jury
subpoenas to obtain search warrants and gather evidence against him. They did not.
[*P35] The grand jury is an investigative body charged with determining whether there is probable cause to believe
that a crime has occurred. People v. DeLaire, 240 III. App. 3d 1012, 1021, 610 N.E.2d 1277, 183 III. Dec. 33 (1993). A
grand-jury investigation is not complete until every available clue has been investigated and all witnesses have been
examined. DeLaire, 240 III. App. 3d at 1021. The State is not required to justify the issuance of a grand-jury subpoena
by establishing probable cause, as the very purpose of such a subpoena is to ascertain whether probable cause exists.
DeLaire, 240 III. App. 3d at 1021.
[*P36] The subpoena power of the grand jury is designed for its own use, and not to further independent
investigations by the police or the prosecutor. DeLaire, 240 III. App. 3d at 1023. Subpoenas may be issued without
advance authority of the grand jury, but only if the purpose of the subpoenas is to produce evidence for the use of the
grand jury. DeLaire, 240 III. App. 3d at 1023.
[*P37] Further, a law enforcement officer may be appointed by the grand jury to act as its investigator. 725 ILCS
5/112-5(b) (West 2014); DeLaire, 240 III. App. 3d at 1025; see also People v. O'Dette, 2017 IL App (2d) 150884, H 51,
413 III. Dec. 768, 78 N.E.3d 1044. As such, a duly-appointed investigator acts as an agent of the grand jury. DeLaire,
240 III. App. 3d at 1025.
[*P38] Here, although defendant contends that there was no cause [**11] to support the appointment of over 400
law enforcement officers as grand-jury investigators, he does not dispute that Sergeant Anderson and Officer Hyde
were duly-appointed grand-jury investigators. In that capacity, they were authorized to gather evidence, including via
subpoenas, to assist the grand jury in its assessment of whether probable cause existed to indict defendant. As part of
that responsibility, the officers reviewed the evidence gathered pursuant to the grand-jury subpoenas. They also used
that evidence to obtain warrants to collect further evidence. More importantly, the evidence collected was ultimately
turned over to the grand jury. The grand jury, in turn, relied on that evidence in determining that there was probable
cause to charge defendant. Thus, the police did not conduct an investigation independent of the grand jury.
[*P39] Although defendant relies on DeLaire, that case is distinguishable. In DeLaire, the police officer who gathered
the evidence was not an authorized grand-jury investigator. DeLaire, 240 III. App. 3d at 1025-26. Therefore, this court
held that the contents of the subpoenaed records could not be properly divulged to the officer. DeLaire, 240 III. App. 3d
at 1026. Here, on the other hand, the officers were properly [**12] authorized grand-jury investigators.
[*P40] Defendant's contention that the evidence collected pursuant to the subpoenas could not be used to obtain
search warrants also lacks merit. The officers were authorized to gather evidence on behalf of the grand jury. One of
the ways in which they did so was to obtain search warrants. Those warrants were supported by the evidence
developed as part of the officers' duties as grand-jury investigators. Thus, the use of the warrants was entirely
consistent with the officers', obligations to investigate on behalf of the grand iury.|i*l
[*P41] We next address whether the trial court abused its discretion in admitting exhibit Nos. 21-29, which consisted
of summaries of business records maintained by Aon and several financial institutions. Relying on section 115-5 of the
Code of Criminal Procedure of 1963 (Code) (725 ILCS 5/115-5 (West 2014)), defendant contends that those exhibits
were created during the course of an investigation and in anticipation of litigation.
[*P42] We begin by noting that defendant properly raised this issue in the trial court. Although he did not object to
the exhibits when they were admitted at trial, he did object to the State's motion in limine seeking admission of the
exhibits [**13] and further challenged their admission in his posttrial motion. See People v. Denson, 2014 IL 116231,
H 24, 386 III. Dec. 635, 21 N.E.3d 398. Thus, he did not forfeit the issue.
[*P43] Rule 1006 of the Illinois Rules of Evidence (eff. Jan. 1, 2011) provides that, where the contents of voluminous
writings, recordings, or photographs, cannot conveniently be examined in court, they may be presented in the form of a
chart, summary, or calculation. Case law also has allowed the trial court, in its discretion, to admit exhibits containing
summaries when the original documents upon which the summaries are based are voluminous and cannot conveniently
be examined by the trier of fact. People v. Wiesneske, 234 III. App. 3d 29, 40, 599 N.E.2d 1266, 175 III. Dec. 252
(1992). The documents that are summarized, however, must be made available in court or at least to the opposing
party. Wiesneske, 234 III. App. 3d at 40. More importantly, if the underlying data is admissible under the businessrecords exception to the rule against hearsay, a summary of that data may be admitted, thereby permitting a party to
present a summary of voluminous business records to convenience the court. Wiesneske, 234 III. App. 3d at 41 (citing
Fed. R. Evid. 1006); see also People v. Crawford Distributing Co., 78 III. 2d 70, 77, 397 N.E.2d 1362, 34 III. Dec. 296
(1979) (admitting a summary of over 1200 invoices); F.L. Waiz, Inc. v. Hobart Corp., 224 III. App. 3d 727, 732, 586
N.E.2d 1314, 167 III. Dec. 42 (1992) (admitting a summary of over 9000 invoices). Neither section 115-5(a) nor 115-5
(c) requires that a summary of data be kept in the regular course of business. Wiesneske, 234 III. App. 3d at 41.
Rather, it is the [**14] underlying data upon which the summary is based that must be kept in the regular course of
business. Wiesneske, 234 III. App. 3d at 41.
[*P44] In this case, defendant never challenged the admissibility of the business records underlying the summaries.
Instead, he limited his challenge to the summaries themselves, contending that they were inadmissible as having been
prepared for the criminal litigation. That contention fails, however, as the litigation limitation in section 115-5(c) applies
only to the underlying business records and not the summaries. Indeed, such summaries by their nature will have been
prepared for litigation. So long as the records that are being summarized qualify as business records and are too
voluminous to be convenient for the trier of fact, the summaries will be admissible, notwithstanding their having been
prepared for litigation. Thus, the trial court did not abuse its discretion in admitting exhibit Nos. 21-29.

https ://doc-advance .lexis.com/documentprint/documentprintclick/?pdmfid= 1512960&crid...

5/15/2020

Page 5 of 6

■y

[*P45] That leaves defendant's contention that the trial court erred in denying his motion to reconsider his sentence.
In that regard, he argues that multiple acts of money laundering were aggregated in violation of section lll-4(c) of the
Code (725 ILCS 5/lll-4(c) (West 2014)), thereby voiding his sentence for that offense.
‘.v

[*P46] Defendant has failed [**15] to set forth a developed argument supported by relevant authority that his
sentence for money laundering was void. Thus, that contention is forfeited. See III. S. Ct. R. 341(h)(7) (eff. Jan. 1,
2016).
[*P47] Even if that contention were not forfeited, it lacks merit. His sentence was not rendered void, even if the trial
court erred in imposing it. See People v. Castleberry, 2015 IL 116916, HD 17-19, 398 III. Dec. 22, 43 N.E.3d 932. Thus,
he cannot challenge his sentence as void.
[*P48] To the extent that defendant contends that the trial court erred in denying his posttrial motion to vacate his
money-laundering conviction, such contention fails. Count III alleged that defendant committed money laundering by
engaging in a financial transaction involving proceeds from a theft. In turn, counts I and II each alleged a theft of over
$1 million. Because the money laundering, as charged, involved the proceeds of theft exceeding $500,000, there was
no improper aggregation.|2A|
[*P49] Finally, we note that defendant raised several issues regarding a related civil-forfeiture proceeding. However,
we granted the State's motion to strike those portions of defendant's brief. Further, those issues have been raised in a
separate appeal. See People v. Jenkins, Nos. 2-17-0105 & 2-17-0331 cons. Thus, we do not address those
issues [**16] here.

[*P50] III. CONCLUSION
[*P51] For the reasons stated, we affirm the judgment of the circuit court of Lake County. As part of our judgment,
we grant the State's request that defendant be assessed $50 as costs for this appeal. 55 ILCS 5/4-2002(a) (West
2016); see also People v. Nicholls, 71 III. 2d 166, 178, 374 N.E.2d 194, 15 III. Dec. 759 (1978).
[*P52] Affirmed.

Footnotes

firj
We note that defendant contends that, between February and April of 2014, evidence was gathered
improperly via the grand-jury subpoenas. The record shows, however, that, although defendant was charged by
information on March 27, 2014, he was not indicted until May 14, 2014. Thus, no evidence was gathered via the
grand-jury subpoenas after he was indicted.

We note that the amount of the thefts alleged in counts I and II was properly aggregated, as the thefts were
part of a single intent and design to defraud Aon. See 725 ILCS 5/lll-4(c) (West 2014).

Content Type:
Terms:
Narrow By: -NoneDate and Time: May 15,2020 02:17:13 p.m. EDT

https://doc-advance.lexis.com/documentprmt/documentprintclick/7pdmficNl 512960&crid...

5/15/2020

Page 6 of 6

* h

LexisNexis*

About
LexisNexis®

Privacy
Policy

Cookie
Policy

Terms &
Conditions

Copyright
©2020
LexisNexis.
All rights
reserved.

6LRELX Group™

https://doc-advance.lexis.com/documentprint/documentprintclick/?pdmfid=1512960&crid...

Prtrt

5/15/2020

Case: l:18-cv-Q6696 Document #: IS s-iied: 02/20/19 Page 1 of 3 PageiD #:898
>

United States District Court
For The Northern District Of Illinois
Eastern Division
Ernest Jenkins
Petitioner,
No. 18 CV 6696
v.
Judge Manish S. Shah
Kim Smith, Warden,
Respondent.
Order
The petition for a writ of habeas corpus, [1] [6], is denied. The court declines to
issue a certificate of appealability. Enter judgment in favor of respondent and
terminate civil case. Petitioner’s motion for copies of court orders [15] is granted. The
clerk shall send copies of Docket Entries 5 and 10, along with this order and the
judgment order to petitioner.
Statement

,

A jury in the Circuit Court of Lake County, Illinois, convicted petitioner Ernest
Jenkins of theft, money laundering, and accessing a computer as part of a scheme to
defraud. People v. Jenkins, 2018 IL App (2d) 160278-U, | 4; [13-4] at 1-2.1 Jenkins
worked in Georgia for Aon Corporation, a global company with its headquarters in
Lincolnshire, Illinois. Id. at Ulf 7-8. Aon administered retirement accounts, and it
discovered that millions of dollars had been transferred out of certain accounts and
into Jenkins’s hands. Id. at ^ 9-10. Jenkins had remote access to Aon’s computer
system, id. at ^ 8, and his unique ID conducted the suspicious transactions in Aon’s
system. [13-7] at 17. After discovering the transactions, Aon called the Lincolnshire
police. [13-7] at 21. At trial, in addition to the evidence of the unauthorized transfers
processed through Aon’s system with Jenkins’s ID, the prosecution presented
1 Bracketed numbers refer to entries on the district court docket, and page numbers refer to
the CM/ECF header placed at the top of filings. The Illinois Appellate Court’s decision on
Jenkins’s direct appeal is the decision of the highest state court to review the merits of
petitioner’s claim. See Wilson v. Sellers, 138 S.Ct. 1188, 1192 (2018); Ford u. Wilson, 747 F.3d
944, 949 (7th Cir. 2014). That court’s factual determinations are presumed correct, unless
rebutted by clear and convincing evidence. Thompkins v. Pfister, 698 F.3d 976, 983 (7th Cir.
2012).

A*

Case: l:18-cv-06696 Document#: 16 Fiied: 02/20/19 Page.2 of 3 PageiD #:899

documents found in Jenkin’s bedroom that tied him to the thefts, e.g., [13-8] at 8889, and evidence of Jenkins’s post-arrest statements—he admitted to taking millions
of dollars, Jenkins, 2018 IL App (2d) 160278-U at 18. The trial court sentenced him
to 18 years in prison. He now petitions for a writ of habeas corpus. 28 U.S.C. § 2254.
Jenkins argues that there was no evidence that his crime occurred in Illinois,
and so his prosecution was unlawful and unconstitutional. Issues of state law—for
example, whether the state court had jurisdiction under Illinois statutes—are not
cognizable in federal court under habeas review. See Estelle v. McGuire, 502 U.S. 62,
67 (1991). “Violations of state laws are cognizable only if they resulted in fundamental
unfairness and consequently violate a petitioner’s constitutional rights.” Lechner v.
Frank, 341 F.3d 635, 642 (7th Cir. 2003) (citing Estelle, 502 U.S. at 67-68). Failure
to prove an element of a crime beyond a reasonable doubt is a federal constitutional
claim. Jackson v. Virginia, 443 U.S. 307, 321 (1979).
“[A] federal court may only grant habeas relief if the adjudication of a
prisoner’s claim by a state court ‘resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States;’ or if the adjudication
‘resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding.’ 28 U.S.C.
§ 2254(d)(1) and (2). The standard under § 2254(d) is ‘difficult to meet’ and ‘highly
deferential.’ Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (citations and quotation
marks omitted).” Saxon v. Lashbrook, 873 F.3d 982, 987 (7th Cir. 2017).
The state court’s findings were not unreasonable, it acknowledged the beyonda-reasonable-doubt standard applicable to elements of the offenses, and a jury could
reasonably conclude that the transactions conducted by Jenkins passed through Aon
computers in Illinois. Jenkins notes that there was no direct evidence of affected
computers in Illinois, and there was evidence that Aon was a global company with
computers elsewhere. But circumstantial evidence may be used to support proof
beyond a reasonable doubt. Here, there was evidence that Aon was headquartered in
Lincolnshire and that it reported the crime to the Lincolnshire police. There was
evidence that suggested that the kind of remote computer access used by Jenkins was
like a hard-wire connection to the computers in Lincolnshire. [13-7] at 41-42. The
state court’s determination that Jenkins accessed a computer system that existed, in
part, in Illinois was supported by the record and is presumed correct on federal
habeas review. See Jenkins, 2018 IL App (2d) 160278-U at | 33. In addition, Aon—in
its capacity as records administrator of the accounts—suffered a loss from the thefts,
and with its headquarters in Illinois, a jury could conclude that some of the results of
the crimes occurred in Illinois. See id. (finding that Jenkins’s conduct resulted in Aon
suffering a loss in Illinois).
2

Af

il

Cass: i:iS-cv-Q6636 Document#: 16 Fiisd: 02/20/13 Page 3 of 3 PageiD #:9GQ

With sufficient evidence that Aon’s computer systems existed in part in Illinois
and the company suffered a loss in Illinois, there was no legal error warranting
habeas relief. Under Illinois law, a person may be prosecuted for an offense if either
the conduct which is an element of the offense, or “the result which is such an
element, occurs within the State.” 720ILCS 5/l-5(b). This “jurisdiction” is an element
of all Illinois crimes and must be proven beyond a reasonable doubt. People v. Holt,
91 Ill.2d 480, 492 (1982). The appellate court reasonably applied these principles
when it concluded that Jenkins’s theft, money laundering, and fraudulent computer
access crimes either occurred or had a result occurring in Illinois. There was no
fundamental unfairness here, because it has long been understood that “[a]cts done
outside a jurisdiction, but intended to produce and producing detrimental effects
within it, justify a state in punishing the cause of the harm as if he had been present
at the effect.” Strassheim v. Daily, 221 U.S. 280, 285 (1911).
Jenkins has not made a substantial showing of the denial of a constitutional
right. I decline to issue a certificate of appealability. See 28 U.S.C. § 2253(c)(2); Slack
v. McDaniel, 529 U.S. 473, 478 (2000). The petition is denied, and the Clerk shall
enter judgment in favor of the respondent.2
Enter:

Date: February 20, 2019
Manish S. Shah
U.S. District Judge

2 Jenkins’s request to strike respondent’s exhibits is denied; the exhibits are records from the
state-court proceedings. His reply brief adequately addresses the arguments raised by
respondent and demonstrates that he was not prejudiced by any failure to receive copies.
3

Mrttieii States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted January 8, 2020
Decided January 17, 2020
Before
DIANE S. SYKES, Circuit Judge
MjlCHAEl B. BRENNAN, Circuit Judge

No. 19-1450
ERNEST JENKINS,
Petitioner-Appellant,

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

v.

No. 18 CV 6696

DANIEL CLARKE,
Respondent-Appellee.

Manish S. Shah,

Judge.
ORDER

Ernest Jenkins has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record on appeal and find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED.

A*

i

Mrriteir States ©curt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
February 20,2020
Before
DIANE S. SYKES, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge

No. 19-1450
ERNEST JENKINS,
Petitioner-Appellant,
v.
DANIEL CLARKE,
Respondent-Appellee.

Appeal from the
United States District Court
for the Northern District of Illinois,
Eastern Division.
No. 18 CV 6696
Manish S. Shah,
Judge.
ORDER

On consideration of the petition for rehearing and for rehearing en banc, no judge
in active service has requested a vote on the petition for rehearing en banc, and both
judges on the original panel have voted to deny rehearing. It is therefore ordered that the
petition for rehearing and for rehearing en banc is DENIED.

•i

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

NOTICE OF ISSUANCE OF MANDATE
February 28, 2020

To:

Thomas G. Bruton
UNITED STATES DISTRICT COURT
Northern District of Illinois
Chicago, IL 60604-0000

ERNEST R. JENKINS,
Petitioner - Appellant
No. 19-1450

v.
DANIEL CLARKE, Acting Warden,
Respondent - Appellee

Ori^matm.; C.v>l* Information
District Court No: l:18-cv-06696
Northern District of Illinois, Eastern Division
District Judge Mardsh S. Shah
Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and judgment, if any, and any direction as to
costs shall constitute the mandate.
RECORD ON APPEAL STATUS:

No record to be returned

NOTE TO COUNSEL:
If any physical and large documentary exhibits have been filed in the above-entitled cause, they are

to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn during this period
will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.
Date:

form name: c7_Mandate(form ID: 135)

Received by:

Additional material
from this filing is
available in the
Clerk's Office.

